<html>
<title> - A THREAT TO AMERICA'S CHILDREN: THE TRUMP ADMINISTRATION'S PROPOSAL TO GUT FAIR HOUSING ACCOUNTABILITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                    A THREAT TO AMERICA'S CHILDREN:

                  THE TRUMP ADMINISTRATION'S PROPOSAL

                   TO GUT FAIR HOUSING ACCOUNTABILITY

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2020

                               __________

                           Serial No. 116-87

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      


                  Available on: http://www.govinfo.gov
                           oversight.house.gov
                             docs.house.gov
                             
                             
                              ______                 


              U.S. GOVERNMENT PUBLISHING OFFICE 
39-656 PDF             WASHINGTON : 2020 
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Ro Khanna, California                Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York   Deb Haaland, New Mexico
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
                     Candyce Phoenix, Chief Counsel
                          Taylor Jones, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Wm. Lacy Clay, Missouri              Chip Roy, Texas, Ranking Minority 
Debbie Wasserman Schultz, Florida        Member
Robin L. Kelly, Illinois             Thomas Massie, Kentucky
Alexandria Ocasio-Cortez, New York   Mark Meadows, North Carolina
Ayanna Pressley, Massachusetts       Jody B. Hice, Georgia
Eleanor Holmes Norton, District of   Michael Cloud, Texas
    Columbia                         Carol D. Miller, West Virginia
Jimmy Gomez, California              Frank Keller, Pennsylvania

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 5, 2020.................................     1

                               Witnesses

Mr. Jorge Andres Soto, Director of Public Policy, National Fair 
  Housing Alliance
Oral Statement...................................................     5
Ms. Ellen Lee, Director of Community and Economic Development, 
  City of New Orleans
Oral Statement...................................................     7
Dr. Megan Sandel, Principal Investigator, Children's Healthwatch, 
  MD, Boston Medical Center
Oral Statement...................................................     8
Ms. Ateira Griffin, Chief Executive Officer and Founder, BOND, 
  Inc - Building Our Nation's Daughters
Oral Statement...................................................    10
Mr. Michael Hendrix, Director, State and Local Policy, Manhattan 
  Institute
Oral Statement...................................................    12

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents listed below are available at: docs.house.gov.

  * Letter from the National Education Association.

  * Letter from the Texas Low Income Housing Information Service.

  * Letter from 24 faith organizations.

  * QFR's from Rep. Roy to Mr. Hendrix at Manhattan Institute.

  * QFR's from Rep. Roy to Mr. Soto at National Fair Housing 
  Alliance, and response.



                    A THREAT TO AMERICA'S CHILDREN:

                  THE TRUMP ADMINISTRATION'S PROPOSAL

                   TO GUT FAIR HOUSING ACCOUNTABILITY

                              ----------                              


                      Wednesday, February 5, 2020

                   House of Representatives
   Subcommittee on Civil Rights and Civil Liberties
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jamie Raskin, 
(chairman of the subcommittee) presiding.
    Present: Representatives Maloney, Raskin, Maloney, Clay, 
Wasserman Schultz, Kelly, Gomez, Ocasio-Cortez, Pressley, 
Haaland, Norton, Sarbanes, Roy, Massie, Meadows, Hice, Cloud, 
Keller, Miller, Foxx.
    Mr. Raskin. Chairman can declare a recess of the committee 
at any time.
    I now recognize myself for five minutes to give an opening 
statement, but I want to welcome all of our guests and all of 
our witnesses today. We really appreciate your coming and 
everyone who has come to participate and to engage in this 
proceeding.
    We are going to waive on, by unanimous consent, if there is 
no objection, Congressman Sarbane's, Congressman Gosar, and 
Congresswoman Foxx.
    Without objection, they will all be waived on for purposes 
of participating in this hearing only and I will now recognize 
myself for my opening statement. I want to thank you all for 
coming to the second of the committee's hearings on the Trump 
Administration's regulatory attack on the welfare of America's 
children.
    Last month, the Department of Housing and Urban Development 
released a proposed rule that would demolish a meaningful 
accountability for the Government's progress on Fair Housing 
and would help trap children in a cycle of poverty, stifling 
their growth and constricting their mobility and opportunities 
in life.
    The 1968 Fair Housing Act required HUD to, quote, 
``Affirmatively further Fair Housing and remedy decades of 
systemic housing discrimination.'' For decades, the Federal 
Government engaged in deliberate discrimination to segregate by 
race and advantage whites over African Americans.
    Many people think that residential segregation just 
happened in America, but it didn't. The Federal Government, 
along with state and county governments, were integrally 
involved in the process.
    The New Deal and World War II gave birth to the systematic 
use of redlining as the Federal Government refused to insure 
mortgage loans in African American neighborhoods. The Federal 
Housing Administration recommended building you highways to 
rigidly segregate African Americans from white neighborhoods 
and from desirable city resources.
    The Government financed the construction of entire 
communities on the condition that the houses built there could 
not be sold to African Americans and other non-white citizens. 
So, the 1968 commitment to remedy this disgraceful record was a 
major and promising policy departure, but a 2010 GAO study 
found that HUD had added, quote, ``only limited value'' in 
terms of eliminating potential impediments to Fair Housing.
    The Fair Housing Act's key provision, therefore, lay 
essentially dormant for a half century until the Obama 
Administration moved to enforce it, to desegregate our 
communities and work toward fair housing.
    The Trump Administration now proposes a radical u-turn, 
choosing to return to the segregationist housing policies that 
failed The American Dream for 50 years. HUD's proposed rule 
eliminates consideration of race or segregation from HUD's Fair 
Housing oversight. It eliminates the obligation of local 
housing authorities to identify and address discriminatory 
housing patterns. It destroys guaranties for community 
participation that allow people to engage in formulating the 
housing policies that shape their own experiences and it 
prioritizes affordable housing in an isolated and abstract way, 
rejecting consideration of the quality of the neighborhoods 
that those affordable houses are in. In short, HUD is proposing 
to rubber-stamp housing plans without serious accountability 
and without any eye toward making Fair Housing a serious 
national priority.
    A child's zip code should not dictate his or her destiny, 
but studies show that living in high-poverty areas has a 
lifelong, detrimental effect on a child's educational and 
employment prospects and long-term, mental, and physical 
health. More than 8.5 million children in America, 12 percent 
of the young people in the country, live in concentrated 
poverty.
    African American and American Indian children are seven 
times more likely to live in poor neighborhoods than white 
children and Latinx children are nearly five times more likely.
    Reviving The American Dream for everyone requires a 
deliberate commitment to equity and Fair Housing. President 
Trump's abdication of Federal oversight means kids across 
America are more likely to get trapped in a poverty cycle of 
the Government's making.
    Congress must push back against this dereliction of duty 
and I want to remind my colleagues of the promise of all of 
America's children. Our dear former Chairman Cummings spoke of 
the difference that a change in a neighborhood made for his own 
ability to reach his potential in life. He said that moving to 
a high-opportunity neighborhood, quote, ``Opened my eyes to a 
better world. I had the opportunity to attend integrated and 
high-quality public schools, where I was inspired to excel. It 
is not an exaggeration to say that the housing moves my family 
made were critical to the tremendous opportunities I have had 
in my life.''
    And many sociologists say that integrated neighborhoods 
create access to networks of social and economic opportunity, 
which people may otherwise be deprived of. How many young 
people who could be inspired, by our largest example, are we 
failing by abandoning them and refusing our responsibility to 
ensure that every neighborhood in America is a neighborhood of 
real opportunity and diversity.
    We owe it to America's young people to hold this 
administration accountable for gutting the first Federal effort 
in decades, aimed at meaningfully enforcing Fair Housing and 
reversing decades of deliberate race segregation in how 
Americans live.
    I am now delighted to recognize the ranking member, who 
today, is Mr. Keller, the gentleman from Pennsylvania. We are 
delighted to have you sitting in, Mr. Keller.
    Mr. Keller. Thank you, Chairman Raskin, for holding this 
hearing today. Thank you to the people who are here to testify, 
members of the testifiers here and also the public, to join us.
    We all agree there shouldn't be any conditions in public 
housing that would pose any kind of disadvantage of rift to 
residence, including children. I agree that we need to work 
toward solutions that empower state and local communities to 
invest in housing choices for all residents at all levels of 
income.
    I am proud that The American Dream is alive and well, 
thanks to the economic boom under President Trump. Employment 
is near an all-time low and people across all incomes, 
education, and skill levels, are able to secure high-paying 
jobs. Now, we need to use the engine of capitalism to leverage 
funding to create more affordable housing and choices; after 
all, housing is part of The American Dream.
    Burdensome regulations at state and local levels prevent 
building affordable housing units. Our local communities need 
to have a serious debate about how to create housing 
affordability and choice for all residents.
    The Obama Administration role was a burdensome paperwork 
exercise with no enforcement that would have done nothing to 
produce actual, affordable housing. Unlike the Obama 
Administration rule, the Trump rule relies on state and local 
governments as the driver to identify their own local barriers 
to housing affordability and propose solutions.
    The Trump Administration role recognizes that housing needs 
in Pennsylvania are different than housing needs elsewhere. It 
reduces regulatory burdens on communities while still holding 
local governments accountable for housing affordability. If 
local government continually fails to affirmatively further 
Fair Housing, their Federal funding through HUD could be 
reallocated to communities who are doing a better job of 
providing affordable housing choices for their citizens.
    The Trump Administration role strikes the right balance 
between affirmatively furthering Fair Housing and allowing 
local governments to set priorities for their constituents.
    Thank you, Chairman, and I yield back.
    Mr. Raskin. I thank the ranking member for his remarks and 
I want to recognize that we have a new member to the 
Subcommittee on Civil Rights and Civil Liberties, 
Representative Deb Haaland from the First District in New 
Mexico, and we are delighted to have you with us and look 
forward to your participation and contribution to the work of 
our subcommittee.
    And with that, I want to recognize the chair of the full 
committee, Chairwoman Maloney for her opening statement.
    Chairwoman Maloney. Thank you.
    I want to thank my colleague and friend, Representative 
Jamie Raskin, chair of the Subcommittee on Civil Rights and 
Civil Liberties, for convening this important hearing on the 
proposed affirmatively furthering Fair House Rule that guts 
Fair Housing accountability.
    This is the second in a series of four hearings, examining 
the negative effects of the Trump Administration's poverty, 
housing, hunger, and health regulations on children. As I have 
said before, the Trump Administration is engaged in an attack 
on children. The administration should be creating economic 
opportunity and ensuring the health and well-being of our 
Nation's children, but instead, they have been prioritizing 
special interests.
    It is our job in Congress to protect all children from 
harmful regulations and ensure they have the resources to reach 
their full potential. Today, we will examine how the Department 
of Housing and Urban Development is completely abdicating its 
duty to promote Fair Housing.
    If this rule goes into effect, ongoing housing 
discrimination and segregation will continue to be swept under 
the rug and HUD will end up doing far less to reduce 
segregation and expand housing opportunities for protected 
groups, further trapping children in concentrated poverty.
    In effort to address Fair Housing should actively fight for 
a long legacy of a discrimination and promote access to 
opportunity for our children and I yield back.
    Mr. Raskin. Thank you very much, Madam Chair, for those 
excellent opening remarks.
    And I now want to welcome our witnesses. Jorge Andres Soto 
is the director of public policy at the National Fair Housing 
Alliance. Thank you for joining us.
    Ellen Lee has come all the way from New Orleans, where 
she's the director of Community and Economic Development for 
the City. Thank you for joining us, Ms. Lee.
    Dr. Megan Sandel is at Children's HealthWatch, the co-lead 
principal investigator, which is at the Boston Medical Center. 
Thank you for coming.
    Ateira Griffin is the founder and CEO of BOND, Inc.; BOND 
stands for Building Our Nation's Daughters. Thank you for 
coming.
    And, finally, we have Michael Hendrix from the Manhattan 
Institute. Thank you for joining us, Mr. Hendrix, as the 
minority witness.
    And with that, each of you is given five minutes.
    And I am going to ask to swear you in. If you would stand 
and raise your right hand, if you would.
    [Witnesses sworn.]
    Mr. Raskin. Let the record show that all the witnesses 
answered in the affirmative.
    Thank you, please be seated. Please be sure to speak 
directly into your microphone.
    And, without objection, your written statements will be 
made part of the official record, and you are limited to five 
minutes, but then, of course, we will be following up with 
questions and I know that the members have a lot to talk to 
you, about.
    With that, Mr. Soto, you are now recognized to give an oral 
presentation.

  STATEMENT OF JORGE ANDRES SOTO, DIRECTOR OF PUBLIC POLICY, 
                 NATIONAL FAIR HOUSING ALLIANCE

    Mr. Soto. Chairman Raskin, Ranking Member Keller, and the 
Members of the Subcommittee, my name is Jorge Andres Soto, and 
I am director of public policy at the National Fair Housing 
Alliance. Thank you for the opportunity to testify here today 
and for your engagement on this issue.
    Where you live determines the opportunities you and your 
family will have, the quality of school your children can 
attend, whether they have safe places to play, whether they are 
exposed to environmental hazards, whether they have access to 
healthy food, and other important variables that affect life 
outcomes.
    With the passage of the Fair Housing Act, Congress made a 
promise that every neighborhood would afford children all of 
the opportunities that they need to succeed; regrettably, the 
promises under--that promise is under attack, as the Trump 
Administration works to undermine the protections under the 
Act.
    HUD's proposed Affirmatively Furthering Fair Housing rule 
fundamentally undermines and conflicts with the intent and 
purpose of the Fair Housing Act. It will undoubtedly perpetuate 
residential segregation, racially concentrated poverty, and the 
harms to children that result.
    Residential segregation and racially concentrated poverty 
in the United States were, and still are, by design. The forced 
displacement of American Indians and Westward Expansion 
policies, the institution of slavery, Jim Crow policies with 
the segregation of people of color in post-depression public 
housing, and their exclusion from homeownership programs 
created by the Home Owners Loan Corporation and the Federal 
Housing Administration, the proliferation of deed restrictions, 
restrictive covenants, exclusionary zoning ordinances and 
redlining, the institutionalization of people with 
disabilities, and the willful disregard of the Fair Housing 
Act's AFFH provision, all created the segregation that defines 
and limits our neighborhoods and communities to this day.
    The Federal Government played a consequential role 
throughout all of this history and the Act's AFFH provision was 
explicitly written to right those wrongs. It states that 
recipients of Fair Housing and community development funding 
must use those dollars in a manner that furthers the Act's 
policies.
    In 1972, the Supreme Court reaffirmed that the Act 
recognized that where a family lives--where it is allowed to 
live, is inextricably bound up with better education, better 
jobs, economic motivation, and good living conditions; however, 
it was not until 1995, 27 years after the Fair Housing Act was 
enacted, that HUD adopted the first AFFH rule.
    The 1995 rule required jurisdictions to conduct an analysis 
of impediments to Fair Housing, take steps to overcome those 
impediments and maintain records about both.
    HUD provided little guidance, no actual oversight or 
accountability measures, and no resources to jurisdictions to 
ensure that the Federal dollars they use in their neighborhoods 
were being spent to advance the goals of the Fair Housing Act.
    The Government Accountability Office, HUD, local officials, 
and Fair Housing advocates, alike, agreed that the 1995 rule 
was a failure.
    In 2015, HUD adopted an AFFH rule that addressed all of the 
weaknesses that GAO identified and it included provisions to 
ensure that jurisdictions could meaningfully advance their 
housing goals. The 2015 rule provided a clearer definition of 
what it means to affirmatively further Fair Housing, an 
analytical framework for Fair Housing plans, a uniform set of 
data to inform local analysis, a regular schedule, by which 
plans were to be conducted, and required a robust community 
engagement process to ensure that Fair Housing issues could be 
brought to light and included in Fair Housing plans.
    The rule for the first time ever required that Fair Housing 
goals be incorporated into consolidated plans, PHA plans, and 
annual progress reports. It also required that plans identify 
and prioritize Fair Housing goals with metrics and timelines to 
access programs--progress toward accomplishing those goals.
    In diametric contrast, the proposed rule before us 
eliminates any requirement for jurisdictions to assess local 
residential patterns of segregation. It does not require a 
data-driven approach and provides no planning tools to help 
grantees tackle barriers to Fair Housing. It ignores the 
intersection between housing and other key indicators of 
opportunity that exist as a result of housing-and community-
development decisions, and it requires no meaningful community 
engagement to give the public a voice in identifying and 
prioritizing Fair Housing goals.
    Simply put, the proposed rule does not satisfy the 
requirement of the Fair Housing Act. It would allow 
jurisdictions to certify compliance with the Act, even if they 
fail to address discrimination or perpetuate residential 
segregation and racially concentrated poverty.
    This is not a Fair Housing rule; instead, it reflects and 
endorsement of the segregation and racially concentrated 
poverty that have produced harmful health, educational, 
economic, and social outcomes. Our nation's children deserve so 
much more.
    Thank you, I look forward to your questions.
    Mr. Raskin. Mr. Soto, thank you for your admirably cogent 
and concise presentation there.
    Very quickly, when you say, ``AFFH'' rule, what does that 
stand for?
    Mr. Soto. Affirmatively Furthering Fair Housing.
    It is not a fun phrase.
    Mr. Raskin. Affirmatively Furthering Fair Housing Rule----
    Mr. Soto. Yes.
    Mr. Raskin [continuing]. Because when we say, AFFH, we are 
talking about the rule which compels the Government to 
affirmatively further the Fair Housing values.
    Mr. Soto. That is right.
    Mr. Raskin. OK. Very good.
    Ms. Lee?

  STATEMENT OF ELLEN LEE, DIRECTOR OF COMMUNITY AND ECONOMIC 
                DEVELOPMENT, CITY OF NEW ORLEANS

    Ms. Lee. Good afternoon, Chairman Raskin, Ranking Member 
Keller, Chairwoman Maloney, and Members of the committee. Thank 
you for the opportunity to testify before you today.
    My name is Ellen Lee, and I serve as the director of 
Community and Economic Development for the city of New Orleans. 
On behalf of Mayor LaToya Cantrell and the City, I commend your 
committee's leadership in undertaking this important issue, and 
we appreciate your willingness to hear about our experience.
    The 2015 AFFH regulation provided new and updated guidance, 
as well as data tools for jurisdictions to use in the 
production of an assessment of Fair Housing. Because the 
regulation brought an issuance of new tools and new data, some 
of which would be different to gather on our own to better 
inform planning, the New Orleans experience implementing this 
regulation was overwhelmingly positive.
    The benefits of this process were realized in greater 
efficiencies, better planning and mapping capabilities, and 
enhanced decision-making for our local government.
    The regulatory framework encouraged collaboration with the 
Housing Authority and other partners, which doubled our 
planning capacity, while also taking into deeper consideration, 
the broader range of families being served through both 
agencies; this partnership reduced redundancies, creating a 
single plan to address affordable housing investments across a 
broader income spectrum of need.
    The process required not only local data, but local 
expertise and robust citizen input, and who better experts on 
the needs of their families and their communities than the 
people who live there?
    Through the data provided, we could take a more 
comprehensive look at non-entitlement housing funding, tax 
credits, FHA financing, and even private capital, giving us new 
insight into our neighborhood makeup.
    In 2016, New Orleans' neighborhoods were more racially and 
socioeconomically segregated than they had been in the past 20 
years. This surprising revelation--at least to me it was 
surprising--helped change our mindset about the investments 
that we make in housing; that is, it is equally important that 
we invest in affordable housing as where we invest in 
affordable housing, that preserving affordable housing is also 
critically important.
    Since receiving HUD-approve of our plan, we have 
implemented a pilot program for voucher-based families to help 
them move to neighborhoods of opportunity to better access the 
services they need.
    We have reprioritized our HUD entitlement funds, bringing 
new rental housing opportunities to some neighborhoods, while 
incentivizing homeownership in others.
    We have also been more intentional in creating strategic 
partnerships and leveraging HUD funding with additional public 
assets, such as land and incentives.
    We have worked more closely with other city departments to 
increase non-housing investments in underserved neighborhoods, 
expanding work force training, health and childcare services 
into those neighborhoods, sometimes using existing facilities, 
such as libraries and community centers.
    Funding decisions for new housing developments are made, in 
part, on a proposed developments proximity to transit and other 
amenities.
    The adjustments we have made are consistent with what 
research tells us about how place matters. Economists have 
performed statistical analysis of the effective place on 
interrupting intergenerational poverty.
    The infrastructure and fabric of a neighborhood can have a 
profound impact on multiple generations. Children from low-
income families are able to live in resource-rich neighborhoods 
tend to earn more as adults, are more likely to be college-
educated, are less likely to be single parents, and are more 
likely to live in high-income neighborhoods as adults, 
themselves. Mayor Cantrell's administration is especially 
dedicated to making long-term decisions that positively impact 
today's children, our leaders of tomorrow.
    Are you familiar one quarter of New Orleans' renter 
households include children. Studies demonstrate that housing 
quality can significantly impact children's health and school 
performance. Substandard housing conditions are often 
correlated with respiratory conditions in children, leading to 
hospitalization, missed school days, and lower school 
performance.
    Besides the physiological effects of hazards on health that 
lead directly to lower literacy rates, health and learning 
outcomes for children are also negatively impacted by 
disruptions associated with frequent moves and often accompany 
living in substandard housing. The decisions we make today are 
the tomorrow we build for our children.
    I thank you for the opportunity to speak with you today and 
I am happy to answer questions.
    Mr. Raskin. Thank you very much, Ms. Lee. I appreciate your 
excellent testimony.
    Dr. Sandel?

 STATEMENT OF MEGAN SANDEL, PRINCIPAL INVESTIGATOR, CHILDREN'S 
            HEALTHWATCH, MD AT BOSTON MEDICAL CENTER

    Dr. Sandel. Thank you, Chairman Raskin, Ranking Member 
Keller, Chairwoman Maloney, and the distinguished Members of 
House Oversight and Reform Subcommittee on Civil Rights and 
Civil Liberties. Thank you for inviting me to speak today.
    My name is Dr. Megan Sandel. I work at Boston Medical 
Center and I serve there also as the co-lead principal 
investigator of Children's HealthWatch and co-direct the Grow 
Clinic for Children.
    Throughout many more than 25 years of clinical practice and 
research, I have documented the importance of how housing 
impacts the health and development of children and their 
families. But I am here today not only as a pediatrician; I 
brought my 13-year-old daughter, Maeve, with me, because what I 
want for my patients is the same opportunities that my children 
currently enjoy.
    I want this for all children because the scientific 
evidences is clear: Children who live in quality, stable, 
affordable homes in opportunity neighborhoods have better 
health outcomes than those who do not.
    Previous research documents these inequities operate 
through four pathways: quality, stability, affordability, and 
location. And those domains operate, predominantly, through 
things likes segregation, in terms of the short-and long-term 
health of children in their families.
    Current efforts by HUD to weaken the Fair Housing Act by 
changing the 2017 Affirmatively Furthering Fair Housing Rule, 
exacerbate these risks across all four domains by increasing 
segregation, a strong predictor of health inequities.
    My testimony today will focus on how clinical experience 
and research indicate how changes to the rule will negatively 
impact children and their family's health.
    First, let me tell you about a patient of mine. For the 
purposes of the testimony today, I will call him ``Anton.'' So, 
I first met Anton when he was two years old, but he had not 
outgrown his 12-month-old clothes yet; he was diagnosed with 
failure to thrive, which is a commonly known disease for 
children that don't grow as expected. He even met the World 
Health Organization definition of malnutrition for age.
    Anton and his family were living in a concentrated poverty 
neighborhood in Boston. His family were consistently having 
trouble making ends meet. His mom was working multiple full-
time jobs and wasn't able to get a long-term, full-time job, 
because of lack of childcare.
    Anton's mom confided in me, she was not only worried about 
Anton, but she was worried about his older sister that wasn't 
doing well in school.
    After two years, Anton's family was able to convince a 
landlord in a suburb outside of Boston, to accept their mobile 
voucher. His mom gushed to me about the new neighborhood. She 
said, ``My children can now sleep through the night because 
they are not hearing gunshots. My kids can go to local parks 
and now be able to play and my daughter is able to do better in 
school, because she doesn't have to share a textbook.''
    And so, Anton was then able to enroll in a local preschool 
because there weren't miles-long waiting lists and then he was 
able to grow and thrive and eventually be discharged from my 
clinic.
    This is the power that a stable, affordable home in a 
neighborhood connected to opportunities, can have for kids and 
their parents to reach their full potential. But, honestly, 
Anton and his family weren't able to reach that until after two 
years because of housing discrimination.
    We need a stronger rule, not a weaker rule, to make housing 
opportunities available to all families like Anton's.
    The 2015 Affirmatively Furthering Fair Housing rule was 
specifically designed to strengthen the oversight of agencies 
in communities. The rule provided evidence-based tools access 
discrimination and develop concrete implementation plans and a 
timeline to address those problems.
    The current administration's proposal would undermine the 
effectiveness of the rules by replacing this evidence-based 
approach with a checkbox system that lacks sufficient detail 
for accessing discrimination.
    As a researcher and a physician, I know the import of 
accurate measurement. It allows for the diagnosis of problems. 
It allows for accurate judgments and treatment plans and it 
allows for measurement of ultimate success.
    The Fair Housing Act sought to address deep-rooted 
inequities, preventing both, individual discrimination in 
housing and addressing historic patterns of segregation. The 
health inequities associated with residential segregation have 
been extensively documented from mortality and education gaps 
to differential access to green spaces and healthier foods.
    Most American metropolitan areas remain moderately and 
highly segregated with areas of concentrated poverty and fewer 
opportunities. My own research emphasizes this in the city of 
Boston. In 2016, we used a tool to assess opportunity in 
neighborhoods and my colleagues and I found that three-year-old 
children living in the lowest-opportunity neighborhoods, had a 
higher prevalence of high blood pressure, a measure of biologic 
health and stress, than children who lived in higher-
opportunity neighborhoods.
    As a pediatrician, I can prescribe medical treatments that 
respond to clinical symptoms, but in the case--the most 
effective medicine from treating my patients' seasonality found 
in a pharmacy. What my patients need for a healthier future is 
a stable, descent, affordable home in a neighborhood of 
opportunity. We need evidence-based tools to ensure that it is 
systematically enforced and maintaining those tools are needed 
for the 2015 rule.
    We must actively promote opportunity and not check a box.
    Mr. Raskin. Dr. Sandel, if you could just wrap it up.
    Dr. Sandel. The children from Americans deserve that for 
their health. Thank you.
    Mr. Raskin. And thank you very much for your testimony.
    Ms. Griffin, coming to you.

   STATEMENT OF ATEIRA GRIFFIN, CHIEF EXECUTIVE OFFICER AND 
      FOUNDER, BOND, INC., BUILDING OUR NATION'S DAUGHTERS

    Ms. Griffin. Afternoon, Chairman Raskin, Ranking Member 
Keller. Thank you for the opportunity to testify today.
    Fourteen--the number of times my family moved throughout my 
childhood, and now I am sure you are asking why. My mother, 
like every parent in America, was determined to give her 
children the best that she could afford. They didn't know this 
would turn into a never-ending request for a safe, affordable, 
resource-rich neighborhood, taking us across the city of 
Baltimore, and even as far as Ohio.
    Generation upon generations of black and brown families 
have been left to chase opportunity, due to the Federal 
Government's failure to keep one simple promise made in 1968--
access to Fair Housing.
    Fourteen neighborhoods, 10 zip codes, and in each one, I 
was a different child. My first neighborhood, where my great-
grandparents settled was, and still is, considered a black 
enclave. I remember riding my big wheel down the tree-lined 
street and playing in the park with my brother.
    My school was well-funded, top-rated, and just a short walk 
away. I excelled in school. I even won a dramatic reading 
contest.
    We were a tight-knit, cheerful, healthy, and thriving 
community. Black neighborhoods and communities of color can 
flourish, but how?
    Our neighborhood was surrounded by predominantly white 
neighborhoods in the top, middle portion of the White L, a term 
coined by Dr. Lawrence brown, where better health outcomes, 
transportation, schools, and food access are centered, due to 
white concentrations of wealth. Our community benefited from 
decades of investment and white communities only because of our 
geographic location in the midst of them.
    We need intentional investment. By the time I was 6, we 
were priced out. We moved to what felt like a different world 
on a block with two abandoned houses and no trees--different 
neighborhood, different child.
    Before, I fell asleep to the rhythmic sound of crickets; 
now, I fought for sleep through the consistent pop of gunshots.
    New rules came with our new neighborhood: no playing 
outside; come straight home after school; stay away from the 
windows.
    I hated the food. Nothing was fresh. Everything was in a 
can, a box, or a bag.
    I began to struggle with courses, once easy for me. My 
brother now needed learning supports. My mother was under 
constant stress, depressed, and showing signs of hypertension. 
I was diagnosed with asthma, due to pollution and higher heat 
indexes.
    My mother's salary was just high enough to disqualify her 
from receiving housing support, but low enough to be priced out 
in neighborhoods with better living conditions.
    One summer, as I played with my dolls, our front door was 
kicked open. I jumped to the other side of the living room and 
hid behind a chair. A man rushed through the door, then a blue 
blur a few seconds behind him. They ran through our home and 
out the backdoor in our kitchen. I can still hear my mother's 
screams.
    No apology, no explanation, or even acknowledgment of what 
happened. At eight, I learned our family, our neighborhood, our 
community was invisible, dispensable, and often blamed for its 
conditions.
    We packed up our house and moved in with my grandparents--
different child, different neighborhood.
    I learned a lot from my grandmother Veronica. She spent 24 
years working at the Housing Authority of Baltimore City, 
pouring over thousands of applications from families for 
housing. She shared her frustration with the lack of clear 
Federal frameworks and support to ensure all families could 
thrive.
    Even while battling Stage 4 pancreatic cancer for these 
families was still urgent for her. I wonder if my grandmother's 
push to implement measures to disrupt racist housing policies 
would have moved the needle forward in Baltimore; 
unfortunately, her battle with cancer and fight for Fair 
Housing ended in 2002.
    I am here to carry my grandmother's legacy further. I give 
voice to her experiences and those on the ground fighting for 
solutions to prevent 14 moves in another child's life.
    Inequity is baked into our national housing system and can 
only be changed by reverse engineering the policies propping up 
the system of oppression across America. We must proactively 
evaluate how we invest in communities and in whose communities 
we choose to invest.
    It is easy to say these regulations cause too much 
paperwork or cost too much. Those farthest from the pain have 
the luxury of philosophizing about it. Today's children and 
families do not have that luxury. My grandmother died not 
having that luxury.
    I leave you with a variation of the Maasai Tribe greeting 
for grounding--I hope it will help you make the best decisions 
for the children and families across America: How are the 
children when no Fair Housing exists?
    Thank you.
    Mr. Raskin. Ms. Griffin, thank you very much, and I want to 
thank you very much for your very detailed and moving 
statement, written statement that you presented to us, as well 
as what you just presented now. Thank you very much.
    Mr. Hendrix, you are recognized for five minutes.

STATEMENT OF MICHAEL HENDRIX, DIRECTOR, STATE AND LOCAL POLICY, 
                      MANHATTAN INSTITUTE

    Mr. Hendrix. Good afternoon, Chairman Raskin, Congressman 
Keller, and distinguished Members of the Subcommittee on Civil 
Rights and Civil Liberties. Thank you for inviting me to 
participate in today's hearing.
    My name is Michael Hendrix; I'm the director of state and 
local policy at the Manhattan Institute, and I, along with 
other colleagues, seek to advance solutions for the flourishing 
of America's communities.
    My central point today is that America's housing market is 
neither, free nor fair. This burden often falls hardest on 
those least able to bear them. I have historically 
disenfranchised communities, working families trying to make a 
living in pricey cities, and individuals facing prejudice and 
poverty.
    The result of this is an absence of realistic housing 
options for millions of Americans that reinforces patterns of 
discrimination. In 1968, when then-senator, Walter Mondale were 
speaking in favor of the Fair Housing Act he helped to author, 
he stated that simply prohibiting discrimination, quote, 
``Would not overcome the economic problem of those who could 
not afford to purchase the house of their choice,'' end quote.
    Well while we cannot regulate or legislate the laws of 
supply and demand, we can help roll back the exclusionary 
regulations standing in the way of fair and/or free housing 
choice in this country. We can do so for minority and low-
income Americans, and, indeed, for all Americans.
    That is why the Department of Housing and Urban 
Development's recently proposed AFFH rule is an important step 
in the right direction. It aims--rightly so--to, quote, 
``Promote and provide incentives for innovations in the areas 
of affordable housing supply, access to housing, and improved 
housing conditions,'' end quote, while avoiding one-size-fits-
all solutions.
    We know that home prices nationwide are rising at twice the 
rate of incomes and three times the rate of inflation. Renters, 
meanwhile, have seen their rents rise for the second longest 
streak since World War II. And as the price of these barriers 
grow, so does the benefit of lowering them; disproportionately 
so for America's racial minorities.
    Reducing zoning regulations alone is estimated to lower 
differences in racial segregation between neighborhoods by more 
than a third. Artificially high housing costs also reduce 
intergenerational mobility. Parents find it harder than ever to 
move to be neighborhoods with more opportunity, better schools, 
less crime, and higher-paying jobs.
    Homes near good schools are nearly 2.5 times more expensive 
than those near underperforming schools and those realities 
have enormous costs on the life outcomes of children. With the 
state of housing in America and the reasonably proposed AFFH 
rule, it is reasonable to ask whether the Fair Housing Act is 
achieving its goals 5 decades on.
    The prior AFFH rule finalized in 2015 under President 
Barack Obama, in reality, did little to loosen the grip of 
restrictive housing policies that led to residential 
segregation and disparate opportunity in the first place. 
Rather than making housing more affordable and accessible, it 
was often simply more paperwork for Cities and the consultants, 
who authored hundreds of pages of toothless assessments; all 
jurisdictions, no matter their size, shape, status, or 
capacity, had to complete the same inflexible survey.
    This one-size-fits-all requirement covering more than 3,000 
jurisdictions, was, in turn, meant to be reviewed by HUD staff 
that also lacked its own capacity; meanwhile, HUD staff were 
asserting themselves into local governance through denial 
letters. Many jurisdictions received far-reaching replies, 
extending into issues well beyond HUD's expertise, such as 
transit and education.
    We can and must do better to affirmatively further Fair 
Housing Choice in America. That is why the recently proposed 
AFFH rule, put forward by Secretary Ben Carson, represents a 
concrete improvement to his Department's enforcement of the 
Fair Housing Act.
    For instance, it updates and streamlines HUD's report 
process. It requires jurisdictions to demonstrate concrete 
progress in furthering for housing and righting the wrongs of 
redlining. This result-based approach ideally allows for more 
effective and less-burdensome reporting process for 
jurisdictions, as well as for HUD, itself.
    Simpler requirements should, in practice, not only help 
jurisdictions better comply with their obligations under the 
Fair Housing Act, but ensure HUD's scrutiny lands on the worst 
offenders. And in turn, HUD funding can be scored to actual 
progress. Mayors will be able to compete for Federal dollars 
and national prestige, and ideally, such competition helps spur 
innovation.
    There are more reasons than ever for HUD to empower 
jurisdictions, to affirmatively further Fair Housing Choice 
with concrete reforms. Fewer and fewer housing markets depend 
not only on encountering discrimination, but in removing the 
barriers to more affordable and available housing for all 
Americans.
    By improving the AFFH rule, HUD is taking an important step 
in the right direction of upholding this country's commitment 
to the spirit and the letter of the Fair Housing Act. Thank 
you.
    Mr. Raskin. Mr. Hendrix, thank you very much for your 
testimony. We will now go to our five-minute questions.
    I am going to begin, and Mr. Soto, let me start with you. 
Is it fair to say that the new rule would include no 
requirement that housing officials consider the effects that 
housing policies adopted by a jurisdiction will have on 
different groups?
    Mr. Soto. I would say yes.
    Mr. Raskin. And how does the new rule treat public 
participation, vis-a-vis, what was taking place under the Obama 
rule?
    Mr. Soto. The proposed new rule essentially relegates any 
community engagement to the consolidated planning process and 
its community-engagement requirements.
    Mr. Raskin. Community members will have a reduced voice 
under the new regulation?
    Mr. Soto. I think that is right.
    Mr. Raskin. Does the new rule deal--require consideration 
of how a housing plan would affect opportunity for people who 
live in a particular community?
    Mr. Soto. There is no requirement to do that.
    Mr. Raskin. How does the prior rule and this rule handle 
HUD oversight?
    Mr. Soto. So, essentially, HUD would receive assessments of 
Fair Housing, which is the plan that would be conducted by a 
jurisdiction that would include community engagement. Those 
plans would essentially be tied to the consolidated planning 
process and then subsequent reporting requirements in the 
consolidated planning process would essentially require 
jurisdictions to say what they were actually doing and the 
outcomes of their goals in the plans.
    Mr. Raskin. Good.
    Ms. Lee, let me ask you this: How did the public-
participation requirement and the affected-class analysis 
requirement under the Obama rule work in New Orleans and was it 
to your benefit or to your detriment to have those 
requirements?
    Ms. Lee. We believe it was greatly to our benefit. We got 
perspectives from people living in neighborhoods that we would 
not have otherwise had, had we not needed to engage them.
    Mr. Raskin. And what about the requirement that you try to 
consider what the effect would be of a particular plan on 
different communities?
    Ms. Lee. And, absolutely, we always want to strive for 
outcomes for people and not just outputs, and so having that 
perspective definitely made us focus more on the ``so what'' of 
making our investments in housing.
    Mr. Raskin. And were you able to put to use, the data base 
that the Obama Administration provided to localities?
    Ms. Lee. We would not have been able to produce that 
locally, but we used it very effectively, and that is how we 
determined, for example, that there was deeper segregation in 
New Orleans in 2016 than had been in the past 20 years.
    Mr. Raskin. So, that was useful information that will not 
now be provided to you?
    Ms. Lee. That is correct.
    Mr. Raskin. OK. Dr. Sandel, if this rule goes into effect, 
what will the consequences be for the health and well-being of 
children, the kind of children you work with in Boston?
    Dr. Sandel. Yes, I think that what we know is that 
neighborhood segregation and housing discrimination are bad for 
kids' health. And so, anything that doesn't change the 
underlying inequities that we already have, right, like we 
already see those health disparities playing out on the bodies 
of kids, now we need to close the disparities and I don't 
believe this rule will actually accomplish that.
    Mr. Raskin. Very good.
    And, Ms. Griffin, I was very moved by your statement and 
the description of your childhood and growing up.
    And a lot of people seem to think that housing patterns are 
just natural--they just happen that way--but you seem to be 
arguing that Government plays a real role here in shaping 
people's experience of how they grow up, their neighborhoods, 
and so on.
    Tell us what you think about the proposed rule that the 
Trump Administration is offering here.
    Ms. Griffin. I think that this rule opens the window for 
more discrimination and less plans that actually meet the 
necessary outcomes for people living on the ground, like the 
removal of or the decrease of community input in actually 
planning how our communities are going to look and what our 
community will look like once it is developed, what Fair 
Housing looks like to us.
    It reduces the impact. It reduces the way that we would 
like our communities to show up. And it reduces our ability to 
have good outcomes. It reduces good schools.
    We would ask for, like, better trees, better schools, 
better streets. And so, we are starting to create this 
situation where we are increasing discrimination and decreasing 
the ability to measure outcome and use data-driven approaches 
and best practices to inform the way that we create 
communities.
    Mr. Raskin. Some people think that it really should not be 
the role of the Federal Government to be advancing Fair 
Housing.
    Ms. Griffin. Uh-huh.
    Mr. Raskin. What is your response to that?
    Ms. Griffin. Working with my grandmother and seeing her 
work in the Housing Authority of Baltimore City, I know that is 
not the case. She tried to further implement some innovative 
practices on the city level and they did not move forward 
because of a lack of Federal support and frameworks.
    Mr. Raskin. All right. Very good.
    Well, I will turn now to the ranking member, I think. Are 
you deferring to Ms. Miller?
    Mr. Keller. Yes.
    Mr. Raskin. OK. Ms. Miller, you are recognized for five 
minutes.
    Mrs. Miller. Thank you, Chairman Raskin, and thank you to 
all of you all for being here today.
    Housing is an issue that affects all Americans in districts 
big and small, rural and urban. A lack of housing affects each 
of our districts and our constituencies.
    Unfortunately, over 50 years of Federal Government 
intervention in the housing market and trillions of dollars 
spent on ineffective programs, have failed to create the supply 
necessary to house America's growing population, across all 
levels of income.
    Congress must come together to cut burdensome and 
generalized Federal regulation, and instead, empower the local 
communities who know the issues that their towns and cities 
face, to make the decisions that are best for their own 
citizens. My community in Southern West Virginia is drastically 
different from my colleagues of New York City, Los Angeles, or 
Miami, and, therefore, they have different solutions.
    I have been an apartment owner and manager for over 35 
years and I know the difficulties that come with management, 
rent, and tenant concerns. We have all seen time and time again 
that one size really doesn't fit all.
    Let's work together and return this power to those who will 
be able to do the most good in our United States of America.
    Mr. Hendrix, what difficulties do rural communities have 
when it comes to the housing supply, compared to more urban 
areas?
    Mr. Hendrix. Thank you, Congressman Miller.
    As you said, every locality across America is different and 
one-size-fits-all solutions from the Federal Government often 
do not work to address the real problems that America's housing 
market has.
    I would agree with my fellow witness that who better knows 
than the people who live there, I believe is what was said, for 
what can be done in, say, a rural area, as much as New Orleans, 
to provide affordable housing options for every person who 
lives there.
    Mrs. Miller. Why has a focus on promoting the construction 
of only low-income housing failed to alleviate the housing 
crisis across our country?
    Mr. Hendrix. There are a number of regulatory burdens that 
those who produce new housing face, and those regulatory 
burdens--whether they are land-use restrictions or fees--apply 
not only to market-rate private developers, but to those 
providing affordable or moderate-income or even those providing 
public housing.
    So, unless we reduce the exclusionary rules that stand in 
the way of providing housing for all Americans, we can't 
provide more affordable housing in any form.
    Mrs. Miller. So, then, why has apartment construction 
focused more on higher-income developments, instead of housing 
for families of all incomes?
    Mr. Hendrix. Often, that is the only way that some 
apartments can pencil out--in construction costs when it costs 
hundreds of thousands of dollars when regulations add hundreds 
of thousands of dollars onto the costs of the construction of a 
single apartment unit.
    Simply adding a parking requirement to an apartment in San 
Diego could add $50,000 to that apartment unit. When that 
occurs, it is difficult to construct any apartments that are 
affordable for the common man or woman, and that is a 
difficulty that we must reconcile ourselves to if we want more 
affordable housing opportunities for more people.
    Mrs. Miller. Well, I have even found that difference in 
where I live. The people want to know if the parking is covered 
or not covered and, here, it is how much does it cost; it is 
just an entirely different thing.
    How will the new Trump Administration rules alleviate some 
of the burdens on communities and create more housing choice?
    Mr. Hendrix. Ultimately, alleviating the burden standing in 
the way of Fair Housing Choice is a responsibility that falls 
on localities and that the states that oversee them. Those 
localities are ultimately responsible here.
    And I believe that a results-based approach to empower 
those communities to provide more Fair Housing Choice would be 
both, more effective and more streamlined.
    I don't believe that there has been any proof that a small 
number of HUD officials here in D.C. or an even smaller number 
scattered around the country, would really know what each and 
every one of the 3,000 communities that they would be engaging 
with, would actually need to right the wrongs of redlining.
    Mrs. Miller. Will Federal rent control actually create 
affordable housing for Americans across all of the 
demographics?
    Mr. Hendrix. The desire for rent control in many 
communities--even federally--does come from a real desire for 
more affordable housing; that is certainly true.
    But it is unclear that that will actually create more 
housing. What most economists of all stripes do conclude is 
that it will constrict housing supply, not add more housing, 
and that the housing that is locked down be for incumbent 
renters and not for newcomers, not for new immigrants.
    It will tend to benefit older residents and not younger 
ones. It will tend to benefit single renters and not families. 
We can't have that as any sort of a solution for this country, 
let alone for any city in America.
    Mrs. Miller. Thank you.
    I yield back my time.
    Mr. Raskin. Thank you very much, Ms. Miller.
    I go now to Ms. Ocasio-Cortez, the vice chair of our 
subcommittee.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman.
    Research has clearly communicated that segregated, 
concentrated poverty has long-term, devastating effects on the 
health and welfare of our Nation's children.
    And when we fail to recognize the disparities in our 
children's face by virtue of their zip code and by our 
inability to act, we fail our kids. And for so often--you know, 
my own life experience, the zip code that a child is born in 
determines so much of that child's Destiny.
    The Child Opportunity Index is a study that analyzes the 
neighborhoods across America on the quality of their schools, 
green spaces, food, air, health insurance--your quality of 
life--and it ranked neighborhoods from 0 to 100, and a report 
that was just released this month in January 2020 found that 
the strongest predictor of child neighborhood opportunity was 
race and ethnicity--not income, not zip code, not anything else 
that people pretend it is, but the number-one predictor was a 
child's--was raises and ethnicity in the predictor of child 
income; that is across 100 of the largest Metro areas.
    The score for neighborhoods where white children live is 
you 73 out of a 100.
    Where Hispanic children is--are, is compared to--that is 33 
out of 100.
    And for black children, it is 24 out of 100.
    This is not a coincidence; housing issues are racial 
justice issues.
    Mr. Soto, from a historical perspective, how did we get to 
a place of such drastic inequity for children of color?
    Mr. Soto. I think that if you look at the entire history of 
this country, you'll see that segregation and racially 
concentrated poverty that results from that was very much by 
design.
    I mentioned earlier the history of segregation--the history 
of slavery, the history of Jim Crow policies, the way that New 
Deal and other programs that were intended to increase or 
create homeownership and also create public housing were all 
segregated and did not actually open to people of color in any 
way.
    And what you see is if you look around a number of 
different places across the country and you look at a map of 
today and you put it over a redlining map that were used by the 
Home Owners Loan Corporation that were relied upon by the 
Federal Housing Administration, and by the private market to 
exclude those neighborhoods and those redlined communities, 
you'll see that they are very similar from when the Fair 
Housing Act was passed and forward.
    Ms. Ocasio-Cortez. Absolutely.
    And Ms. Lee, can you share any conclusions that you came to 
during your city's Fair Housing process, about how segregated, 
concentrated poverty impacts communities and the children in 
them.
    Ms. Lee. When we were studying or communities and 
identifying those racially and socioeconomically concentrated 
areas of poverty, they all overlapped to areas where we had 
high crime and violence and low-performing public schools. And 
so, we see the direct correlation there in those low-income 
areas to the other negative outcomes for children and families.
    It really caused us to think differently about how and 
where we should make investments to support children.
    Ms. Ocasio-Cortez. Thank you.
    And Ms. Griffin, how do these racial dynamics play out on 
the ground in a community like Baltimore? You know, for so 
often, people talk about statistics and you know, these 
disparate outcomes.
    But I think a lot of people don't understand what this 
actually looks like. And I know how it looks in my backyard of 
the Bronx, but I am interested in your lived experience.
    Ms. Griffin. In Baltimore, this plays out. No. 1, a lot of 
this started out in 1910 with the housing covenants that--with 
the beginning of redlining in Baltimore City. And so, it 
started with blocks and they blocked off each block, coloring 
it a certain color to designate what race could live on that 
block.
    And then, they systematically moved each block together to 
create neighborhoods clumped by race. So, now you have black 
neighborhoods, white neighborhoods, Jewish neighborhoods, and 
immigrant neighborhoods--which was how they categorized it 
then--living together, which then gave them the ability to see 
they were going to direct their actual funding.
    So, we don't want to invest in black communities. We don't 
want to invest in immigrant communities. We barely want to 
invest in Jewish communities. We are going to put all the money 
into white communities, which meant better schools were 
developed there. We have better transportation and free 
transportation in white communities. We also have a higher life 
expectancy of 80 and above in white communities, where it is 
barely 60 in black communities. Corner stores, where you cannot 
even get fresh fruit or vegetables--no good grocery stores, as 
well.
    So, it just shows up in very different ways, in disparate 
ways in the way that we live and we breathe in our communities 
versus in white communities.
    Ms. Ocasio-Cortez. And to be clear, we have never pursued a 
public policy audacious or bold enough to close or reverse that 
gap, correct?
    Ms. Griffin. Correct.
    Ms. Ocasio-Cortez. Thank you.
    Mr. Raskin. Thank you very much.
    Ms. Foxx, you are recognized for five minutes.
    Ms. Foxx. Thank you, Mr. Chairman.
    And I want to thank our witnesses for being here today.
    Despite having spent trillions of dollars of taxpayer money 
on housing, it is not secret that America is still facing a 
critical lack of access to affordable housing--that is 
certainly true in my district--but a top-down approach favored 
by the 2015 Obama rule was burdensome on localities, created a 
massive bureaucracy, and proved to be an ineffective solution 
to the underlying causes of affordable housing shortages.
    And I applaud the Trump Administration for taking steps to 
address this. It is my belief that we need solutions that 
reduce--restrictive regulations that reduce the supply of 
housing, and, instead, allow the free market to flourish.
    Mr. Hendrix, what would you recommend the Federal 
Government do to help local communities with common sense 
approaches to housing, while avoiding a one-size-fits-all 
overreach?
    Mr. Hendrix. Thank you, Congresswoman Foxx.
    I want to applaud you for supporting the YIMBY Act, which 
recognizes that there is a tremendous shortage of housing in 
America. We are underproducing housing by over 7 million homes; 
that shortfall cannot be met by the Government. That has to be 
met by the private sector.
    And as the Federal Government, we can provide necessary 
resources so that localities could have common sense approaches 
to housing. That means recognizing their own role in the 
housing shortage and that also means recognizing what they can 
do to fix that shortage and leveraging the Community 
Development Block Grant process to do that.
    Similar to what AFFH is doing is something that a 
bipartisan group of those in Congress, both Houses of Congress 
have agreed on.
    Ms. Foxx. Thank you.
    Mr. Hendrix, are there reforms that states and localities 
have been pursuing that we should be encouraging?
    Mr. Hendrix. Absolutely. We see across this country, on 
both coasts, in the middle of this country--no matter our 
politics--we see incredible reforms to relegalized housing of 
all shapes and sizes--California--we see Oregon, we see many 
other localities allowing for backyard cottages to be 
developed. We see North Carolina even imposing a 15-day 
business limit for building permits involving small-family 
dwellings--and not just single-family homes--duplexes, as well. 
Those sorts of reforms are what we should be applauding and 
what we should be encouraging, helping localities learn from 
one another.
    Ms. Foxx. Thank you.
    Do you think--you think, I believe, that the private market 
is able to address affordable housing shortages?
    Mr. Hendrix. I believe that they are not only able, but 
that they desire to. We see companies even now sprouting up 
like PadSplit from Georgia that wants to allow people who live 
in single-family homes to be able to rent out rooms there to 
create mini apartment buildings in single-family home, 
residential areas.
    Now, maybe not everybody wants that, but if somebody 
chooses that, we should be able to have the freedom to do it 
and, unfortunately, you have local laws that stand in the way 
of that; if persons are not part of the same family, they can't 
live under a single-family home's roof. Those are the kind of 
common sense reforms that I think we could make progress on.
    Ms. Foxx. Well, in your expert opinion, how would the Trump 
Administration's rule impact housing for children?
    Mr. Hendrix. Partly what we have heard from everyone on 
this panel is that by allowing free and Fair Housing Choice, we 
can allow families and their children to not be stuck in 
neighborhoods of low opportunity.
    And right now, we have high housing costs--all too often, 
areas of high opportunity--and there is no amount of HUD 
overreach or forced displacement of individuals that will fix 
that problem. We must make it more affordable for people to be 
able to move and move in a neighborhood that they choose to 
move into.
    The Federal Government can play an important role in 
informing families on where they could move to opportunity, but 
if they are not lowering the regulatory barriers to introducing 
more affordable housing, that doesn't do us much good.
    Ms. Foxx. Well, I thank you.
    I want to give you an example of something that is 
happening--not in my district, but in a neighboring district, 
and in a county that I would hope to be able to represent in 
the future--I was at Western Piedmont Community College a 
couple of weeks ago and they are planning to build a great big 
building where they would work on teaching people to do 
building trades and create affordable housing within those 
buildings, at least the shells of those, that could then be 
moved onto lots. And there is a huge shortage of housing in 
that one county, and so the community college and the private 
sector entities are working together to come up with ways to 
solve that.
    So, I see those kinds of things happening. I see tiny homes 
being built and zoning ordinances changes, as you mentioned, to 
allow those. So, I think a lot is going on and what we need to 
do is to encourage the innovation that is happening all over 
the country.
    Thank you, Mr. Chairman.
    Mr. Raskin. You bet, Ms. Foxx. Thank you.
    And we now come to Representative Norton from the District 
of Columbia.
    Ms. Norton. Mr. Chairman, this is an important hearing to 
be held.
    We have had success from other equality acts passed; 
largely, the ones in the 1960's and we remember that for 
housing, in particular--perhaps more failure, than progress at 
the time of reconstruction of it, with construction acts, 
housing was included--Fair Housing was included, but, of 
course, there was no enforcement mechanism at the time.
    But look at the difference between, let's say, the Voting 
Rights Act--and we are trying to reenact that now--but there is 
no question that it had an enormous effect on the rights of 
African Americans to vote, especially in the South.
    Or look at the 1964 Civil Rights Act. It was my great honor 
to enforce the employment discrimination part of that Act, the 
Equal Employment Opportunity Act. The work force looks very, 
very different than it looked at the time of that Act.
    So, you had two successful Civil Rights Acts, then we come 
to the Fair Housing Act and tragically, we only got it in the 
first place, because, remember, we are talking about 1964 Acts.
    We finally got to 1968--Fair Housing Act--when there was 
the great tragedy of the assassination of Martin Luther King, 
Jr. It had a provision, much like the provision that I enforced 
under the equal employment laws; it had a provision mandating 
affirmatively furthering Fair Housing. I take that as the 
functionally equivalent to affirmative action, which I enforced 
as a part of the 1964 Equal Employment Opportunity Act.
    So, my question--I suppose I should start with Mr. Soto or 
any of you would be qualified to answer this question has there 
been any evidence in whatever administration of affirmative 
action to reaching out in and understanding that the Act means 
don't just not discriminate but do something to eliminate 
discrimination. Speak about the affirmative action, whether it 
has ever occurred and whether it is occurring now.
    Mr. Soto. I can start with that--thank you so much for that 
question. I think it is important to recognize, you know, that 
Fair Housing Act's AFFH provision had never really been 
meaningfully even regulated until 1995 when there was the first 
AF, Affirmatively Furthering for Housing rule.
    Up until that point, jurisdictions we are not really 
required to do any form of analysis or assessment of how they 
would meet the mandates of the Fair Housing Act, and as I 
mentioned earlier, the 1995 rule didn't actually have any 
accountability measures in it that would tie the way that 
jurisdictions would use the community development dollars that 
they had to the way that they actually spent it and require any 
sort of outcomes.
    So, I would say that there is a long history in which the 
Government was completely inactive in requiring enforcement and 
implementation of the AFFH provision.
    Ms. Griffin. I would add that in New Orleans, we were 
required to complete the analysis of impediments to Fair 
Housing Choice, but that was a very different analysis of those 
impediments versus an affirmatively furthering Fair Housing and 
assessment of Fair Housing and what are the actual steps, 
strategies, and processes, that would be taken to overcome 
those impediments and create more equal and fair housing 
access.
    Ms. Norton. The previous administration did have a Fair 
Housing rule--that is in 2015.
    Mr. Soto, or any of you, since then, is there any record of 
anyone having lost Federal funding because of action or failure 
to act?
    Mr. Soto. So, I can answer that.
    There is no record of that, since the proposed rule was 
taken and the reasoning behind that is because HUD had a really 
important understanding that this was a very new thing for 
jurisdictions to have to undergo and it recognized there the 
get-go that jurisdictions would need support and they would 
need to have a series of maybe, back-and-forth, where an AFH 
might not have met the standards necessary under the rule and 
under the Act, but, nevertheless, the jurisdictions would be 
able to improve upon those.
    So, the intent behind the rule was to get jurisdictions to 
start thinking about the ways in which their investments affect 
opportunity; not to remove funding that would then actually 
harm the communities that jurisdictions were trying to serve--
--
    Ms. Norton. So, I don't understand.
    So, you don't think there was an intent to remove funding?
    Mr. Soto. I think that it was--it was always an option that 
HUD could take if jurisdictions chose to not pursue their 
required--their mandates under the Fair Housing Act.
    Ms. Norton. Thank you very much.
    Mr. Chairman, I might add that until an administration--
some administration after all the preparatory action you have 
taken has been done until some guts are put into this Act, 
because something loses funding, I don't expect anything to 
happen.
    Thank you very much.
    Ms. Ocasio-Cortez.
    [Presiding.] Thank you.
    The Chair now recognizes Mr. Keller of Pennsylvania.
    Mr. Keller. Thank you, Madam Chair.
    And, again, thank you to the witnesses for being here 
today.
    And as we talk about the Government's role to improve 
affordable housing and the options and affirmatively further 
Fair Housing, you know, I want to look back on some firsthand 
experience I had growing up.
    My family in today's standards, had we gown up today, we 
would have been considered vulnerable or at-risk, because my 
family struggled to make ends meet and I know there were some--
it is not easy for kids to move around a lot. It happened to 
me. Probably by the time I was 4, I had probably moved a dozen 
times, so I do understand the challenges facing families and 
children. I certainly don't understand it as an adult, 
thankfully, but as a kid, I understood that and I can't imagine 
how my parents felt having to struggle to provide housing for 
us.
    So, Mr. Hendrix, I guess I just want to ask a couple 
questions because I am--you know, the experiences that I have 
are with affordable housing and so forth, but you may be aware 
of or familiar with certain proposals, such as the Green New 
Deal for Public Housing Act, which would use grant programs to 
upgrade housing units into carbon-neutral communities.
    Can you speak to the impact this hundred-and-eighty-billion 
effort would have on the creation of new, affordable housing 
options and overall economy?
    Mr. Hendrix. Thank you, Congressman Keller.
    The Green New Deal would, as you said, commit $180 billion 
over 10 years to upgrading the federally administered public 
housing units; that is, to say, would not necessarily create 
more housing units, but it would upgrade them.
    But I don't believe many have questioned how we would spend 
$172,000 per unit to upgrade these units or, let alone, in New 
York City, for my two units, spend $230,000 per unit or 
question where we would how has individuals when we would move 
them out of public housing units.
    According to the plan for New York, we would move people 
into newly constructed public housing towers and Warehouse 
people there for up to a decade with, necessarily, no promise 
of return; meanwhile, spending hundreds of thousands of dollars 
per unit to, I guess, provide employment. That is one of the 
biggest selling points for the Green New Deal is provide 
employment for construction and labor unions.
    I think our biggest focusing should be on housing, more 
housing for more people that is more affordable. That does not 
do that.
    Mr. Keller. OK. Thank you.
    And, alternatively, the Trump Administration's proposed 
rule on affordable housing aims to reduce burdens for local 
communities and hold underperforming ones accountable as they 
address this issue.
    From your perspective, how might this policy affect 
children and families?
    Mr. Hendrix. Well, as my fellow witness stated earlier, for 
the Fair Housing Act and AFFH, in specific, we have never 
affirmatively enforced it. We have never--no community has lost 
funding for excluding individuals for exclusive regulations 
that have often grounds in racism. We have never 
affirmatively--we have, generally, affirmatively failed in 
providing fair housing.
    And so, I think that we have tremendous amount of 
opportunity this time to hold communities to account, but to 
also make sure there are communities that are reforming and it 
is not HUD bureaucrats making the choices for localities.
    I would trust those in your communities in Pennsylvania 
more than I do those here in D.C.
    Mr. Keller. Thank you.
    And I guess it is just to make a point, I know there are 
Opportunity Zones across the Nation where investment is being 
made into the--in the communities that need that investment. 
So, I think that would also--wouldn't you say that would also 
be a benefit to attract affordable housing and let the 
municipalities or local governments sort of decide how to best 
do the affordable housing?
    Mr. Hendrix. That is right. The Opportunity Zones has, in 
its name, opportunity, and we need to provide that opportunity 
for children, for families, for people of all backward, but 
especially those who have been historically disenfranchised. 
And if you look at the Opportunity Zones program, it is based 
on communities working with their states to identify areas of 
opportunity in low-income census tracks in surrounding 
neighborhoods and continuing to invest in more housing in those 
areas is something that the Opportunity Zones enable and 
together with this new AFFH rule, we can prioritize that sort 
of investment for more communities.
    Mr. Keller. I appreciate that, and I just appreciate all 
the opportunity that all Americans are enjoying in this great 
economy that we have begun to realize over the past few years.
    Thank you, and I yield back--oh, excuse me, if I could--I 
have one thing. I do have some documents, if you don't mind, 
Madam Chair, to be entered into the record?
    Ms. Ocasio-Cortez. Without objection.
    Mr. Keller. Thank you.
    Ms. Ocasio-Cortez. The chair now recognizes Congresswoman 
Wasserman Schultz of Florida for questioning.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Let me just point out for the record that, respectfully, 
the ranking member is not correct that all--when he says that 
all Americans have benefited from this robust economy. We have 
an increasingly widening gulf between people who are doing 
extremely well and people who are hanging by their fingernails, 
for lack of a better way to express it.
    So, to suggest that we can just whitewash the Federal law 
on Fair Housing and essentially blanch it from acknowledging 
that we need to make sure that we are taking care not to allow 
discrimination based on race and racially concentrated poverty 
is essential. And that is what we are here to discuss today, 
because I really want to drill down on what Fair Housing really 
means and how the Trump Administration's new rule seeks to 
undermine the effectiveness and do just that, whitewash the 
legacy of what was landlord mark legislation.
    But I just want to clarify some terms first because, you 
know, this is not a common everyday discussion for most folks. 
So, Mr. Soto, if you would help us with the difference between 
Fair Housing and affordable housing.
    So, Mr. Soto, if you would help us with the difference 
between fair housing and affordable housing and, also, why is 
it essential that HUD have a deliberate focusing on Fair 
Housing, rather than affordable housing?
    Mr. Soto. So, thank you for that question.
    The difference between Fair Housing and affordable housing 
is really important. You could have affordable housing that is 
not accessible to people of color, to people with disabilities, 
to other protected classes. So, the simple--just the mere 
existence of affordable housing doesn't mean that it is fair, 
that it is accessible to all.
    Ms. Wasserman Schultz. And what would make it not 
accessible?
    Mr. Soto. For example, if you limit the places that it can 
be present in, if you only try and produce affordable housing 
in one type of community that doesn't have the community assets 
that help people succeed in them, and, also, if you only limit 
investments in ways that only create housing in one place, but 
don't necessarily help people move to different places that 
they might be able to choose to, otherwise.
    Ms. Wasserman Schultz. Is it super easy to place affordable 
housing anywhere that it might be eligible to place it and if 
you are someone who qualifies for, ``affordable housing'' or 
``Fair Housing,'' are you freely able to just choose to move 
anywhere you would like where you could access affordable 
housing and how does the law impact that?
    Mr. Soto. So, if you look at the usage of vouchers, housing 
vouchers, what you find is that there is rampant discrimination 
against people who have the voucher, who are trying to use the 
voucher in neighborhoods that would be considered neighborhoods 
of opportunity.
    It is critically important to make sure that affordable 
housing can be accessed to people of color and others that are 
protected under the Act because of the history of the ways in 
which our public investments have created neighborhoods and the 
conditions that they result that result for children and 
others.
    Ms. Wasserman Schultz. There is--this proposal restructures 
the process that was meant to ensure that recipients of Federal 
funds adhere to the mission of furthering Fair Housing and 
under the Trump Administration's proposal, HUD would allow 
grantees to choose 3 Fair Housing goals from a predetermined 
list of 16 obstacles; 13 of which relate to affordability, 
rather than Fair Housing.
    Mr. Soto, could you first explain how that obstacles 
analysis differed under the 2015 Obama rule and are there 
inherent problems with this sort of checklist approach?
    Mr. Soto. I will start off by saying that I think--so, the 
2015 rule essentially required jurisdictions to conduct, the 
assessment tool was a way for jurisdictions to be guided 
through a process of analyzing different things that may occur 
in their community.
    So, the points were made earlier by a couple of 
Congresspeople on this committee that not every jurisdiction is 
the same, not every market has the same needs. And recognizing 
that, the 2015 AFFH gave jurisdictions a host of different 
options that they could consider the types of--and how that 
affected opportunity.
    In terms of--and I am sorry, the second part of the 
question was the current list of the proposal?
    Ms. Wasserman Schultz. What are the inherent problems in 
this checklist approach?
    Mr. Soto. So, you know, first of all, like you mentioned, 
the overwhelming majority of those have nothing to do with 
access for any of the protected classes under the Fair Housing 
Act. Beyond that, there is nothing in the proposed rule that 
compels jurisdictions to fix any of those problems.
    Ms. Wasserman Schultz. And if I can just jump in, as my 
time is expiring, essentially--and this is--please let me know 
if you think this is accurate, it demands no accountability. It 
does nothing to end the disparity and opportunity in our 
neighborhoods. It can only be described as yet another attack 
by the Trump Administration on civil rights, one that will have 
a detrimental impact on children, on child poverty, housing, 
hunger, and health.
    And, Madam Chair, I will tell you, I am fortunate to 
represent a district that really has a higher, middle-to-upper-
middle class and even wealthier population. I mean, the cold 
reality is that the chances of locating affordable housing and/
or Fair Housing in most places in my district are somewhere 
between slim and none. I have watched it happen.
    And if you further gut--if you gut and further and make it 
harder than it already is because of the anymore by attitude of 
far too many people, because there, but for the Grace of God go 
I, it will be nearly impossible--and it is extremely difficult 
already for people who are struggling--to find an affordable 
place to live that is not discriminatory in nature.
    And thank you for your indulgence. I yield back the balance 
of my time.
    Ms. Ocasio-Cortez. Thank you.
    The Chair now recognizes and welcomes to the subcommittee 
for the first time, Ms. Haaland of New Mexico.
    Ms. Haaland. Thank you, Madam Chair.
    And thank you all so much for being here this afternoon.
    As a career-long community organizer, I understand the 
value of ensuring everyone in any community has a chance to 
participate in our government. My concern, along with my Fair 
Housing advocates is that this new rule diminishes the level of 
public participation guaranteed to people seeking to influence 
Fair Housing in their neighborhoods.
    And my first question is for you, Ms. Lee: Whose voices are 
most likely to be lost in the process, without a robust public 
participation requirement?
    Ms. Lee. It is the voices of those most directly impacted 
by the discriminatory practices, by the segregated 
neighborhoods, the neighborhoods that are isolated from 
opportunity.
    Ms. Haaland. And so, I feel like if those people don't have 
a representative or an advocate to speak on their behalf, it is 
basically up to them.
    Ms. Lee. They are on their own.
    Ms. Haaland. Yes.
    As a practitioner, how did engaging participation, as 
required in the 2015 regulation, impact the community?
    Ms. Lee. I think the community in New Orleans really felt 
empowered to be participating. We had--we partnered with other 
Fair Housing advocates and agencies to really get a broad group 
community stakeholders, and sometimes people don't want to talk 
to the Government, you know?
    Ms. Haaland. Uh-huh.
    Ms. Lee. So, we were able to partner with other advocating 
organizations to do a couple of things. One, help to break down 
what was going on into more relatable topics so that people 
felt more informed.
    It is like when people say, it is one thing to say you can 
come and sit at the table; it is another to provide me with a 
knife and fork to actually eat and participate in the meal.
    Ms. Haaland. Thank you, Ms. Lee.
    Ms. Griffin, do you believe that community members care 
about their housing situations and if afforded the option would 
engage with local Governments to provide valuable, direct input 
into the plans?
    Ms. Griffin. Absolutely. And I have seen it happen in 
Baltimore.
    I have been in meetings where there were over 100 residents 
come because this was when the 2015 rule had been passed before 
it was taken away in 2018--so, this was 2016--two separate 
communities, hundreds of members in the room talking to folks 
who were going to redevelop that community, about the steps 
that were going to be taken, and they came several times.
    So, not only will they come, but they will come and 
participate and ask questions and inform the process.
    Ms. Haaland. That is excellent.
    Ms. Griffin, if the mothers in your program were able to 
attend a Fair Housing public participation meeting in Baltimore 
like the one required in the 2015 rule, what would they be 
asking for in terms of fair housing.
    Ms. Griffin. I am so glad you asked that question and so 
are they. First, they would ask for quality buildings that do 
not look like military barracks. Second, they listed out that 
they would like to have a space--because I have asked my mom 
this before--they would like to have a space, a community that 
is developed holistically--so, a park.
    Investing in the school is a part of the requirement to be 
able to redevelop this area. Figuring out how to make sure we 
bring good grocery stores to the area that have fresh produce. 
Making sure that they also have access to a community center 
with a pool, a fitness center, community rooms used for classes 
that have STEAM, language-development, career-development, 
academic supports.
    A transportation upgrade, because transportation is a huge 
issue when you talk about fair housing and where we locate our 
people, and making sure that they are not split up in a 
neighborhood that is underneath of a bridge or through highway 
development.
    And, also, ample street lighting and ensuring that at least 
50 percent of the apartments or houses in that area are 
actually affordable and having an ability to have a rent-to-own 
program for an on-ramp to homeownership. Because we are not 
just talking about getting into a house and renting it, we are 
talking about ownership and creating generations of wealth 
within communities who have been locked out of it.
    Ms. Haaland. Absolutely. Thank you so much.
    I come from a community warehousing was an afterthought. 
Native Americans went through eras of assimilation where they 
were essentially uprooted from their communities and sent 
somewhere else because the Federal Government felt that they 
needed to break up their communities.
    My mother, as a result, was raised in the Indian camp in 
Winslow, Arizona, in a boxcar. So, when they assimilated 
Indians to work on the railroad, they didn't necessarily think 
about the housing they would have, so they took a group of box 
cars, lined them up, put a chain link fence around it, and the 
funny thing is that my mother and her parents, they made that 
work.
    But, continually, communities have been an afterthought; 
that is evident in your communities, my communities for--and 
you can ask the descendants of The Long Walk and The Trail of 
Tears, whether the Federal Government thought about the housing 
they would have when they got to the other location.
    So, I thank you for all the work that you are doing to help 
people to find a way to have safe and affordable housing for 
their families. And I just want to say that all citizens have a 
right to participate in this process and the President's rule 
effectively silences the very communities that the Fair Housing 
Act was enacted to protect and that is shameful, in my opinion.
    We must push back on the abdication of Fair Housing process 
and stand up for families' rights to have a voice in their 
housing community.
    And thank you all, again, so much for being here.
    Madam Chair, I yield.
    Ms. Ocasio-Cortez. Thank you.
    And the Chair now recognizes Ms. Pressley of Massachusetts.
    Ms. Pressley. Thank you, Madam Vice Chair--thanks to you 
and the chair for convening this fortunate hearing today, and 
thank you to aware esteemed panelist experts, both, based upon 
lived experience in areas of study and research.
    A special shout-out to Dr. Megan Sandel who is here with us 
today. She's an esteemed pediatrician at Boston Medical Center, 
which sits in the heart of my district, the Massachusetts 7th.
    Make no mistake about it: Housing is health. Where you 
live, the air you breathe, the food you eat, how much money you 
earn, all factor into your long-term health outcomes. This is 
perhaps no clearer than in my district, the Massachusetts 7th, 
one of the most diverse and vibrant districts in the country 
and one of the most unequal.
    Travel three miles from back bay to Roxbury, the blackest 
part of my district, and life expectancy drops 30 years, 3-0.
    For most people in this country, your zip code quite 
literally does determine your Destiny. Black and brown babies 
born into poverty in Boston are twice as like lie to die 
prematurely than white babies and three times as likely to be 
hospitalized for asthma.
    Last May, I questioned HUD Secretary Carson, who refused to 
say if safe housing is a human right and that all people in 
America deserve stable, safe, and affordable housing. He would 
not even affirm, given his former role as a surgeon, that it is 
a critical determinate of health.
    Poverty is not a character flaw; it is a result of failed 
and often cruel policymaking. As far as I am concerned, this 
is, how HUD is currently conducting itself, is completely 
contradictory to its mission, and these proposals are punitive 
and abusive.
    This is child abuse. This is elder abuse. This is abuse, 
period--par for the course of this administration, where the 
cruelty is the point.
    Ms. Griffin, I want to say that you honor your grandmother, 
Veronica, very well with your acumen, your grace, and your 
conviction. I want to commend you for the organizations that 
you have founded.
    And I know you spoke earlier about some of the health 
disparities and things that you and your family faced, and I 
was wondering if you could elaborate for the families you 
serve, have you noticed similar health difficulties to the ones 
that you and your family experienced?
    Ms. Griffin. Yes, I do.
    We have quite a few of our moms and daughters who suffer 
both, sometimes, from asthma, and we also have a lot of moms 
who are suffering with high blood pressure and also increased 
waiting--struggles with weight-management, because of the poor 
and processed food that is in their neighborhoods.
    Ms. Pressley. OK. And what about trauma? How do you see 
trauma manifesting and showing up? I think this is concentrated 
poverty and given that you--well, anyway, I will let you answer 
that first.
    Ms. Griffin. Yes. So, trauma shows up in so many ways. And 
in BOND, we actually have an instituted purchase of, like, 
restorative circle, because we cannot even begin to start to 
help our moms and daughters process how to have positive 
relationships and how to move toward economic mobility without 
facing the trauma they face in their neighborhoods, which 
includes violence.
    When we live in these low-opportunity neighborhoods, 
unfortunately, we are impacted heavily by violence. Over-
policing is another experience of trauma that we often have to 
help deal with.
    Also, rejection, because our moms are struggling every 
single day to try to provide for your children, and if they are 
looking for a new house, if they are trying to get another job 
to help support what they want their girls to have and they are 
often rejected, that causes that mom to have a dejected, 
depressed personality.
    So, we deal with depression. We deal with low self-esteem 
in our girls. Just because of the generational impacts of 
living in poverty and being forced to live in those areas 
without having access to fair and equitable housing.
    Ms. Pressley. That is right.
    And that is why the work that you are doing, that is--and 
the visioning, in partnership with the community is holistic.
    Ms. Griffin. Yes.
    Ms. Pressley. What we are seeing is really 
intergenerational trauma, poverty, and poor health outcomes.
    Dr. Sandel, you have said before that the best prescription 
you can give kids in your care is a healthy place to live. Can 
you expand on that? How does equitable Fair Housing in a high-
opportunity neighborhood compare to the medications you are 
able to prescribe to your patients.
    Dr. Sandel. Yes. I think one of the things we do is we 
measure medications for how much money they may save or whether 
or not they have an impact on health. And what I will tell you 
is that over and over, you see having that stable, decent, 
affordable home in a neighborhood of opportunity will do things 
like reduce severe, morbid obesity. It will affect your 
hemoglobin A1C and diabetes. It will reduce healthcare costs. 
It will improve your asthma outcomes, and we have seen that 
over and over.
    Ms. Pressley. Thank you.
    Ms. Ocasio-Cortez. Thank you.
    And the chair now recognizes Mr. Sarbanes of Maryland for 
five minutes of questioning.
    Mr. Sarbanes. Thanks very much, Madam Chair, and thank you 
to the panel. The testimony today is very compelling.
    Obviously, Fair Housing and ensuring Fair Housing in this 
country is a challenge. It is a complicated problem to solve, 
but the goal in the end is very simple. It is to make sure that 
every child in this country lives in a safe neighborhood with 
clean air and clean water and good schools and access to all 
the basic things that provide kids with full opportunity, which 
you spoke about, Ms. Griffin, as you described moving through 
different stages of your life and having to kind of adjust your 
horizons each step of the way.
    You know, the Trump Administration has essentially said 
that Fair Housing is too expensive, like, we can't do itself. 
He claims that the 2015 rule that we have been speaking about, 
cost HUD $3 and a half million to placement--$3 and a half 
million to implement--a huge sum.
    Not really. That is less than 1 percent of HUD's Fair 
Housing budget.
    The other thing you could compare it to is a GAO report in 
2019 that found that just one of the President's trips to Mar-
a-Lago cost taxpayers $3 and a half million. So, the President 
could pay for this Fair Housing program by skipping just one 
trip to his private club, but, apparently, it is too expensive 
to do the right thing in terms of that rule.
    Ms. Griffin, you talked about moving through many different 
zip codes. You are from Baltimore. I am from Baltimore. And we 
certainly know the challenges that that poses, based on your 
testimony, and other good work that has been done in research.
    You alluded to the fact that your health and your family's 
health was impacted by these moves and I thought maybe you 
could elaborate a little bit more on that.
    I met, today, with American forest, which is an 
organization that is, you know, trying to plant a lot of trees 
and I asked them about the fact that in a lot of urban areas 
there is no tree canopy and what the impact of that is, and so 
the environmental injustice that it represents, and they pulled 
right out of their folder, a report called ``tree equity,'' 
which actually details this and, in fact, tied it back to 
redlining, because they said that the redlining footprint which 
you talked about, could also be correlated to where you find 
tree canopy or the essence of it and then all the problems that 
go with it, and you opened your testimony by talking about it 
as, you know, getting on your bike and going down to the park 
and being surrounded with sort of the greenness of that 
environment.
    So, talk a little bit about the health impacts--physical, 
for sure--but potentially psychic impacts, mental health 
impacts that come from having to constantly revise your 
aspirations and ambitions and limit your horizons because of 
the housing situation that you are in.
    Ms. Griffin. Absolutely. And thank you for also talking 
about trees. Some people don't understand why trees are so 
important.
    But the health impacts that I experienced and my family 
experienced, one, I was diagnosed with asthma when I was young, 
and it was after we moved to a low-opportunity neighborhood, 
because there were like, few and far in between trees. It was a 
massive load of housing density, and because of that, the heat 
index rises and you also have pollution on top of the rising of 
the heat index, which causes more asthma occurrences in 
children in areas like that.
    In addition to that, I also saw that we all gained weight, 
so we also were dealing with being borderline obese at certain 
times, because we were eating highly processed foods and 
because of the food we were also eating, there was an impact on 
our education. So, my brother and I started to do poorly in 
school because we didn't have the right nutrients in our 
bodies. We were malnourished, essentially.
    In addition to that, I know my mother was depressed for 
many reasons. The fact that we had to live in a neighborhood 
like that, trying to find a good home, trying to keep her 
household safe. So, you are thinking about this fight-or-flight 
mode that people go into when you live in spaces like that on a 
day-in and day-out basis; it puts you in high stress levels, 
which causes also, heart conditions and then you have high 
blood pressure that can also come from that, so hypertension.
    And we saw this throughout our family, so not only did my 
mother have those issues, my grandmother, my grandfather, and 
then my brother was diagnosed with diabetes, as well. And so, 
it is just rampant throughout many generations in our family, 
the health impacts of living in low-opportunity neighborhoods.
    Mr. Sarbanes. Thanks very much.
    I yield back.
    Ms. Ocasio-Cortez. Thank you.
    And, you know, I think as we close out this hearing, we 
truly would like to thank all of our witnesses for the 
expertise that you have offered today.
    I would be remiss if I didn't address earlier legislation, 
critique a legislation that I had introduced regarding the 
Green New Deal for Public Housing, and I would simply like to 
say that housing is not just an ability to sleep somewhere. It 
is the ability to be safe, the ability to be healthy.
    There are a lot of people--you know, as I go home to my 
district, there are children that are coughing up blood in 
their public housing facilities because they are being poisoned 
by lead and asbestos.
    And there are a lot of folks here that will tell us that it 
is too expensive for them to live their lives justly. It is too 
expensive for them--for their buildings to be cleaned. It is 
too expensive for them to breathe healthy air and drink clean 
water.
    But those are the same folks who are often saying that it 
is too--that it is, rather, you know, we will pay ourselves 
back by giving the corporations that are often poisoning our 
families a tax cut.
    And justice has no price tag. I think it is important that 
we internalize that because the depravity of those conditions, 
as you had stated so eloquently, Ms. Griffin, we are 
internalized in our self-worth. When you have black mold on 
your walls and you go to sleep with a draft because there are 
holes in your walls, when you are virtually sleeping outside, 
you start to think that it is because you are less than, but it 
is just simply untrue.
    But our Government has treated and discriminated people as 
less than and we have never made up for that injustice and it 
is time that we do that and it will be expensive, but guess 
what? The cost of that injustice has already been borne by 
black communities, native communities, and communities of 
color. So, it is about time that we square that debt.
    I'd like to thank, again, our witnesses for their testimony 
today. Without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair.
    In addition, the public comment period for these policy 
changes will end March 16 and any and all people interested in 
weighing in publicly have that opportunity.
    I'd ask our witnesses to please respond as promptly as you 
are able to any member questions.
    This hearing is now adjourned.
    [Whereupon, at 3:39 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
